Executive Report
Return to the USDOJ/OIG Home Page
Immigration and Naturalization ServiceAnnual Financial Statement
Fiscal Year 1997
Report No. 98-22
September 1998
Office of the Inspector General
COMMENTARY AND SUMMARY
The Immigration and Naturalization Service (INS), under the direction of the Commissioner, administers and enforces laws relating to the immigration and naturalization of noncitizens.  The INS has both a public service mission and an enforcement mission.  It is responsible for facilitating the entry of legally admissible persons into the United States and preventing the unlawful entry and employment of those ineligible for admission.  In FY 1997, INS had a direct budget authority of approximately $3.3 billion, which is a 27 percent increase over INS' FY 1996 funding level of $2.6 billion.
This audit report contains the Annual Financial Statement of INS for the fiscal year ended September 30, 1997.  The audit was performed by Urbach Kahn & Werlin PC, Certified Public Accountants, and resulted in a disclaimer of opinion on the Statement of Financial Position and Statement of Operations and Changes in Net Position.   The disclaimer was a result of the following:
INS did not maintain appropriate accounting records and relevant documentation to substantiate certain balances.
INS' internal control structure was not adequate to ensure that its assets were properly safeguarded from loss or misappropriation and transactions were accurately and completely recorded.
INS' Office of General Counsel could not confirm whether a list of certain pending or threatened litigation, claims and assessments prepared by INS management was complete and accurate.
The INS also received a disclaimer of opinion on its Statement of Financial Position for FY 1996 (Office of Inspector General Report Number 97-22A).  The auditors were not contracted to audit the Statement of Operations and Changes in Net Position in that first-year audit.
Longstanding financial management weaknesses continue to exist at INS.  Five of the seven material weaknesses noted in the FY 1996 report continued to exist in FY 1997.  These material weaknesses relate to fund balance with Treasury, fixed assets, accounts payable, revenues and expenses, and financial management systems control weaknesses.  In addition, three new material weaknesses were identified in FY 1997 relating to intragovernmental receivables, deferred revenue, and contingent liabilities.  A summary of findings noted in the FY 1996 report and their status can be found in the accompanying report.